<html>
<title> - A REVIEW OF RECENT UNITED STATES ARMY CORPS OF ENGINEERS CHIEF'S REPORTS AND POST-AUTHORIZATION CHANGE REPORTS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






   A REVIEW OF RECENT UNITED STATES ARMY CORPS OF ENGINEERS CHIEF'S 
             REPORTS AND POST-AUTHORIZATION CHANGE REPORTS

=======================================================================

                                (113-68)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 29, 2014

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
                                   ______

                         U.S. GOVERNMENT PRINTING OFFICE 

87-700 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
       














             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,      Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDREE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
MARK SANFORD, South Carolina
DAVID W. JOLLY, Florida

                                  (ii)

  


            Subcommittee on Water Resources and Environment

                       BOB GIBBS, Ohio, Chairman

DON YOUNG, Alaska                    TIMOTHY H. BISHOP, New York
GARY G. MILLER, California           DONNA F. EDWARDS, Maryland
SHELLEY MOORE CAPITO, West Virginia  JOHN GARAMENDI, California
CANDICE S. MILLER, Michigan          LOIS FRANKEL, Florida
ERIC A. ``RICK'' CRAWFORD,           ELEANOR HOLMES NORTON, District of 
Arkansas,                            Columbia
  Vice Chair                         EDDIE BERNICE JOHNSON, Texas
DANIEL WEBSTER, Florida              GRACE F. NAPOLITANO, California
JEFF DENHAM, California              STEVE COHEN, Tennessee
REID J. RIBBLE, Wisconsin            JANICE HAHN, California
THOMAS MASSIE, Kentucky              RICHARD M. NOLAN, Minnesota
STEVE DAINES, Montana                ANN KIRKPATRICK, Arizona
TOM RICE, South Carolina             DINA TITUS, Nevada
MARKWAYNE MULLIN, Oklahoma           SEAN PATRICK MALONEY, New York
MARK MEADOWS, North Carolina         NICK J. RAHALL, II, West Virginia
RODNEY DAVIS, Illinois                 (Ex Officio)
MARK SANFORD, South Carolina
DAVID W. JOLLY, Florida
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)











                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Major General John Peabody, Deputy Commanding General for Civil 
  and Emergency Operations, United States Army Corps of 
  Engineers; accompanied by Theodore A. ``Tab'' Brown, P.E., 
  Chief, Planning and Policy Division, United States Army Corps 
  of Engineers...................................................     6

                PREPARED STATEMENT SUBMITTED BY WITNESS

Major General John Peabody.......................................    31

                       SUBMISSION FOR THE RECORD

Hon. Grace F. Napolitano, a Representative in Congress from the 
  State of California, request to submit letter from Eric 
  Garcetti, mayor of Los Angeles, California, April 29, 2014.....    14

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
   A REVIEW OF RECENT UNITED STATES ARMY CORPS OF ENGINEERS CHIEF'S 
             REPORTS AND POST-AUTHORIZATION CHANGE REPORTS

                              ----------                              


                        TUESDAY, APRIL 29, 2014

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:07 a.m. in 
Room 2167, Rayburn House Office Building, Hon. Bob Gibbs 
(Chairman of the subcommittee) presiding.
    Mr. Gibbs. The Committee on Transportation and 
Infrastructure, the Subcommittee on Water Resources and 
Environment, will come to order. Welcome.
    First, I want to do a little bit of housekeeping here. I 
ask unanimous consent to allow Congressman Farenthold to 
participate in today's committee hearing.
    [No response.]
    Mr. Gibbs. With no objection, so ordered. Also, I ask 
unanimous consent that the hearing record be kept open for 30 
days after this hearing in order to accept other submissions of 
written testimony for the hearing record.
    [No response.]
    Mr. Gibbs. No objection? Without objection, so ordered.
    Today we are here to review the U.S. Army Corps of 
Engineers Chief's Reports and Post-Authorization Change 
Reports. And we have General Peabody as our guest. And I will 
yield to myself, first, our opening statement.
    First, welcome again, and we are holding this hearing, the 
Chief's Report, and the process the Corps undertakes to develop 
these water resources development projects, and some of the 
steps the Corps is carrying out internally to accelerate the 
process.
    The U.S. Army Corps of Engineers is the Federal 
Government's largest water resources development and management 
agency. The Corps began its water resources program in the 
1800s when Congress for the first time appropriated money for 
improving river navigation. Today, the Corps of Engineers 
constructs projects for the purpose of navigation, flood 
control, beach erosion control and shoreline protection, 
hydroelectric power, recreation, water supply, environmental 
protection, restoration and enhancement, and fish and wildlife 
mitigation.
    The Corps of Engineers planning process considers economic 
development and environmental needs as it addresses water 
resources challenges. The planning process addresses the 
Nation's water resources needs in a system context, and 
explores a full range of alternatives in developing solutions 
that meet both national and local needs.
    The U.S. Army Corps of Engineers is subject to all Federal 
statutes, including the National Environmental Policy Act 
(NEPA), the Clean Air Act, the Clean Water Act, the Endangered 
Species Act, the Fish and Wildlife Coordination Act, and all 
previous Water Resource Development Acts, Flood Control Acts, 
and Rivers and Harbors Acts. These laws and associated 
regulations and guidance provide the legal basis for the Corps 
of Engineers planning process.
    For instance, when carrying out a feasibility study, the 
National Environmental Policy Act, NEPA, requires the Corps of 
Engineers to include an identification of significant 
environmental resources likely to be impacted by the proposed 
project, an assessment of the impacts, a full disclosure of 
likely impacts, and a consideration of a full range of 
alternatives, including a no-action alternative and an action-
by-other alternatives.
    NEPA also requires a 30-day public review of any draft 
document and a 30-day public review of any final document 
produced by the Corps of Engineers.
    Additionally, when carrying out a feasibility study, the 
Clean Water Act requires an evaluation of the potential impacts 
of a proposed project or action, and requires a letter from a 
State agency ensuring the proposed project or action complies 
with State water quality standards.
    The Army Corps of Engineers also has to formulate 
alternative plans to ensure all reasonable alternatives are 
evaluated, including plans that maximize net national economic 
development benefits and other plans that incorporate other 
Federal, State, and local concerns. Mitigation of adverse 
impacts to be included in each of the alternative plans to 
review--are reviewed in the study. The Corps of Engineers also 
is responsible for identifying areas of risk and uncertainty in 
the study, so decisions can be made with some degree of 
reliability on the estimated costs and benefits of the 
alternative plan.
    These planning efforts do not take place in a back room 
somewhere. There are public meetings as well as interagency 
meetings involving local, State, and other Federal agencies. 
Typically, a plan recommended by the Corps of Engineers is a 
plan with the greatest net economic benefit, and consistent 
with protection of the Nation's environment. However, the Corps 
does not have the discretion to recommend another alternative--
does have, I should put it, does have the discretion to 
recommend another alternative if there are overriding reasons 
for recommending another plan, based on other Federal, State, 
or local concerns.
    By now, many of us have seen the actual size of typical 
studies carried out by the Corps of Engineers. While these are 
complex projects that need to be reviewed by the public and 
other State and Federal agencies, the level of analysis 
required by other laws and regulations are crippling the 
project delivery process. We are literally studying 
infrastructure projects to death, but this is not solely the 
fault of the Corps of Engineers.
    Congress needs to change the way the Corps of Engineers 
carries out its business. It is no longer acceptable that these 
studies take dozens of years to complete. Ultimately, the 
Federal taxpayer is on the hook for these studies and for the 
length of time it takes to carry them out, delaying the 
benefits these projects are ultimately supposedly to provide.
    As we have constructed a policy-heavy Water Resources 
Development Act, WRDA, both the House and Senate conferees are 
focused on accelerating the study and project delivery process, 
as well as better prioritizing these worthwhile investments 
that the American public has relied on in the past for decades. 
And I am interested to have--to hear General Peabody's 
testimony on what--their process they are doing to streamline 
and expedite the process to get these projects going. Because, 
as we all know, time is money. And we are falling behind in our 
global competitiveness by not having our infrastructure where 
it needs to be.
    So at this time I yield to my ranking member, Mr. Bishop 
from New York, for any comments he may have.
    Mr. Bishop. Thank you very much, Mr. Chairman. And I thank 
you and committee Chairman Shuster for holding this hearing on 
outstanding Chief's Reports and 902 project budget increase. 
This hearing is a critical step towards closure and completion 
of the Conference Report and final bill language for the long-
awaited Water Resources Reform and Development Act. This 
hearing provides Congress the ability to perform one of our 
most important roles: oversight and review of the Army Corps of 
Engineers programs, and authorization of specific projects.
    Before I begin my statement, I would like to welcome 
General Peabody here to this morning's hearing. Thank you, sir, 
for your service and attention to the water engineering needs 
of our country. And, most importantly, for assisting the 
northeast coastal States as we recover from Hurricane Sandy. 
Thank you very much, sir.
    With the passage of H.R. 3080, the Water Resources Reform 
Act, in October of last year, we authorized 23 Chief's Reports 
that had been submitted to Congress by the Corps of Engineers. 
These Chief's Reports had been completed after the last WRDA 
bill was passed in 2007. Since the passage of WRRDA in October 
2013, 11 new Chief's Reports have been transmitted to our 
committee. These 11 Chief's Reports are the focus of this 
hearing.
    In addition to these Chief's Reports, we are also 
evaluating requests from the Corps to authorize an increase in 
cost of eight other projects. Collectively, this group of 
projects should be included in the WRRDA 2014 Conference 
Report, and hopefully subject to approval in both the House and 
the Senate within the next few weeks.
    Our responsibility in this subcommittee, and as Members of 
Congress, is to represent the public in the review and 
direction of what the Army Corps of Engineers accomplishes. If 
we fail to execute proper oversight, two things happen. One, 
the administration ends up prioritizing projects and making 
decisions based on their set of metrics. Those metrics may or 
may not be the same ones that are important to Members of 
Congress. Two, the process of authorizing and moving projects 
from design to planning to construction becomes more time-
consuming, complicated, and costly.
    By authorizing these 11 Chief's Reports, along with those 
already captured in H.R. 3080, combined with Section 902 
changes for a limited number of ongoing projects, we will 
support what this country needs most right now: the creation 
and retention of real jobs and wages that will help lift our 
economy. Real jobs for Americans means a stronger Nation.
    We too often take for granted our water infrastructure and 
inland water highways and harbors. It is easy to forget about 
the vital work the Army Corps of Engineers has done over the 
years to protect our communities, beaches, rivers, and 
coastlines. In the heat of debate it is also easy to lose sight 
of the importance that these projects have in employing 
millions of people across this great Nation.
    In my opinion, the process we have embraced with this WRRDA 
bill reflects what we have been set here to do: to legislate 
cooperatively, and collectively do what is right for the 
country. We may disagree over how the administration manages 
the Army Corps, and how the Corps then performs its job. What 
we can agree on is that, without a commitment to sustain, 
maintain, and continually develop our engineering and project 
capacity, we will be wasting the investment that those before 
us have made.
    So, once again, let us do our due diligence here today, 
authorize these projects and get WRRDA across the finish line. 
Thank you, and I yield back the balance of my time.
    Mr. Gibbs. At this time, the chairman of the full Committee 
on Transportation and Infrastructure, Chairman Bill Shuster 
from Pennsylvania.
    Mr. Shuster. I thank the gentleman. Congress is preparing--
or prepared I should say--to re-engage in the development of 
our water resources and our infrastructure, to carry out that 
role, to prioritize the projects and activities carried out by 
the Army Corps of Engineers.
    Historically, as I think many in this room know, water 
resource legislation has been enacted every 2 years to provide 
the oversight and the policy direction that the Corps of 
Engineers--and to authorize the need of the projects and 
improvements. But since such a measure has not been passed 
since 2007, Congress has been silent on needed reforms and has 
failed to take action to develop, maintain, and support our 
Nation's vital water infrastructure needs.
    One of our top priorities is the development of our Water 
Resources Reform and Development Act, WRRDA, legislation in the 
House, and our work in the conference has been the importance 
of strengthening oversight, transparency, and accountability.
    Over the last year-and-a-half this sommittee has held 
numerous public educational forums, roundtables, and hearings 
on the Corps of Engineers program. This process included an 
oversight hearing on June 5, 2013, that provided Members the 
opportunity to review the Chief's Reports submitted to 
Congress, and was an important part of the development of the 
House WRRDA bill that passed by the slim margin of 417 to 3, 
and I am very proud to tout that number.
    Today's hearing continues our strong oversight of the Corps 
of Engineers, and will provide Members the opportunity to 
review the 11 Chief's Reports and 8 Post-Authorization Change 
Reports submitted to Congress since June 5, 2013. This 
oversight hearing will be extremely valuable to our work in 
conference, which we are hopeful is very near to resolution. 
And once we finish this WRRDA bill, it is critical to get WRDAs 
back on a 2-year cycle to ensure Congress has a fundamental 
role in the development of Corps of Engineers projects and the 
oversight of the agency. And, as I have said many times, as 
soon as the President signs this WRRDA bill, we are going to 
start working on the next WRRDA bill for the next Congress.
    I want to thank Chairman Gibbs, Ranking Member Rahall and 
Bishop for their hard work in this matter, and happy to say 
that 417 number reflects much bipartisan support for that bill. 
So I can't thank them enough for their good work.
    And I want to thank General Peabody for your service to the 
Nation. If it was an easy job, running the Corps, or being at 
the top of the Corps, we wouldn't have given it to the Army, 
because we know you guys can get the job done. And with that, I 
yield back.
    Mr. Gibbs. Thank you. I recognize the ranking member of the 
T&I Committee, Mr. Rahall from West Virginia.
    Mr. Rahall. Thank you, Mr. Chairman, and I do want to thank 
you, Chairman Shuster, subcommittee Ranking Member Tim Bishop, 
for holding this hearing on the outstanding Chief's Reports and 
project budget increases for the Water Resources Development 
Act Bill of 2014.
    Throughout the extensive evolution of WRRDA over the last 
year, Chairman Shuster and I have worked in a bipartisan, 
transparent, and collaborative manner to ensure that proper due 
diligence and oversight is performed by the committee. I 
believe that the proof of what we can do when we work together 
is the WRRDA bill that will soon come out of conference.
    This WRRDA bill will direct the reform Corps of Engineers 
project process within the reality of refined budgets and 
congressional expectations. It is our intent over the next 2 
weeks to complete the Conference Report on the combined and 
revised House and Senate WRRDA bills, bring the bill back to 
the House for approval, and then to get it down to the White 
House to be signed into law.
    Our combined commitment to working together will bring jobs 
to America and improvements to the way the Nation manages water 
resources and infrastructure. The hearing this morning is part 
of the commitment we made last year when we said that there 
will be no projects or programs in WRRDA that have not 
undergone congressional review and oversight. That is our 
responsibility, and one we hold as critical to maintaining our 
role of oversight and authorization.
    So, again, I want to thank you, Chairman Shuster and 
Chairman Gibbs, and Ranking Member Bishop, for the cooperative 
manner in which we have worked together on this bill. And I do 
welcome Major General Peabody and thank him as well for his 
service to the country, and also his staff, who worked to 
support the overall program of the Corps of Engineers. Thank 
you both for being here today.
    Thank you, Mr. Chairman.
    Mr. Gibbs. Yes, thank you. Today we have one witness, Major 
General John Peabody. He is the Deputy Commanding General of 
the Civil and Emergency Operations of the United States Corps 
of Engineers. Accompanying him is Mr. Theodore Brown. He is the 
Chief, Planning and Policy Division, of the United States Army 
Corps of Engineers.
    Welcome, gentlemen. And, General Peabody, the floor is 
yours.

  TESTIMONY OF MAJOR GENERAL JOHN PEABODY, DEPUTY COMMANDING 
GENERAL FOR CIVIL AND EMERGENCY OPERATIONS, UNITED STATES ARMY 
 CORPS OF ENGINEERS; ACCOMPANIED BY THEODORE A. ``TAB'' BROWN, 
 P.E., CHIEF, PLANNING AND POLICY DIVISION, UNITED STATES ARMY 
                       CORPS OF ENGINEERS

    General Peabody. Thank you, Mr. Chairman, Ranking Member 
Bishop, Chairman Shuster, Ranking Member Rahall, distinguished 
members of the subcommittee. I am honored to testify on the 
Corps of Engineers project planning process, recent Chief's 
Reports, and Post-Authorization Change Reports. Joining me is 
Mr. Theodore ``Tab'' Brown, the Corps Chief of Planning and 
Policy.
    My full testimony includes descriptions of the six Chief's 
Reports that have completed executive branch review, eight 
potential projects that have Chief's Reports still under 
administration review, and eight projects with Post-
Authorization Change Reports.
    My written testimony also includes a more indepth 
discussion of Civil Works Transformation, and a discussion of 
the life cycle of the Corps' Civil Works project, including the 
planning phase, which begins with a reconnaissance study and, 
if warranted, proceeds to a feasibility study that identifies a 
viable non-Federal sponsor, and makes an investment decision 
recommendation to Congress and the administration in the form 
of a Chief's Report.
    For the last several years, the Corps has been developing a 
strategy to address the Nation's current and future water 
resource needs, including the reliable performance of our 
infrastructure in an era of increasing physical pressures, 
shifting demographics, changing social values, and climate 
variability. This evolving strategy, which we have dubbed 
``Civil Works Transformation,'' is currently focused on four 
main areas: budget development transformation, infrastructure 
strategy, methods of delivery, and planning modernization.
    I am firmly committed to this effort to improve the 
efficiency and effectiveness of our Civil Works program, in 
collaboration with sponsors, resource agencies, and national 
policymakers. This year we embarked on an evaluation of this 
strategy with the intent of capitalizing on early lessons to 
make some adjustments, but I remain confident that the Civil 
Works Transformation is the right general framework for the 
Corps.
    Today we have made good progress. We are beginning to 
synchronize Corps investments with those made by other Federal, 
State, local, and nongovernmental organizations. We are using 
risk-informed decisionmaking to improve the reliability and 
resiliency of our infrastructure portfolio. We have sharpened 
our technical competence and improved organizational efficiency 
by developing technical centers of expertise. We have reduced 
the time to deliver feasibility studies, with investment 
recommendations supported by high-quality analysis. And, 
lastly, we continue improving our enterprise metrics and 
business processes focused on delivering on our commitments, 
enhancing communications, and driving cultural change.
    As one of the key elements of Civil Works Transformation, 
planning modernization is focused on improving the delivery of 
high-quality studies in order to make water resource investment 
recommendations. All studies must comply with key principles, 
including clearly defined objectives, well understood and risk-
informed programming, integrated project management business 
processes, solid quality control, and consistent and policy-
compliant communications.
    Four tenants guide these planning modernization efforts: 
people, projects, program, and process. First, people. An 
effective planning program must have well-trained, experienced 
people with the technical skills and collaborative spirit to 
work with stakeholders to address complex challenges by 
delivering innovative solutions. Investing in them is our most 
critical planning priority.
    Projects. Delivering a study outcome with a project 
investment recommendation is the whole purpose of the planning 
program. Since the passage of WRDA 2007, the Corps has 
completed 36 Chief's Reports, with an approximate estimated 
total cost of nearly $28 billion. In the 3 years prior to 
planning modernization, which began in January of 2011, we 
completed 11 of those reports, 6 of which were 10 years or 
older, for a total net investment of $6.6 billion. Since we 
began planning modernization, we have completed 25 Chief's 
Reports, 14 of which were 10 years or older, for a total net 
estimated cost of $21 billion. It is clear that we have already 
made great progress because we have completed 2\1/2\ times the 
reports with greater complexity in less than the same amount of 
time since WRDA 2007 in the last 3 years.
    Process. The planning process is a deliberate, incremental 
decisionmaking approach that assesses the full range of 
reasonable alternatives. This process has received considerable 
attention with the now-infamous 3x3x3 rule, prompted in part by 
Section 233 of WRDA 2007. However, the key to our ability to 
actualize this goal lies in the SMART--standing for Specific, 
Measurable, Achievable, Risk-informed, and Timely--planning 
approach.
    And, lastly, program. This tenant focuses on coherent, 
total study program management. A key has been to focus 
resources only on those studies most likely to be completed. We 
have achieved this by defining active and inactive study 
categories, reducing the total portfolio from over 650 studies 
to an active portfolio that we are managing of 158. By placing 
over 490 studies in an inactive status, which could be 
activated at some future point, and terminating 19 studies, we 
were able to harness our energies and deliver studies to reach 
a conclusive outcome.
    Wrapping up, I would like to finally add that certain 
provisions in the proposed WRRDA bills under consideration, 
especially elimination of reconnaissance studies, defined fixed 
lengths for feasibility studies, and project permitting 
constraints, could unduly constrain the Corps and our partner 
Federal agencies from exercising the same initiative that 
resulted in the successes we have seen in planning 
modernization.
    Mr. Chairman, thank you again for the opportunity to be 
here today, and I look forward to the committee's questions.
    Mr. Gibbs. Thank you, General. I will start off with some 
questions here. Of the 11 Chief's Reports and the 9 Post-
Authorization Reports that we have here before us today that 
were delivered here since June of last year, this is kind of a 
blanket question on all of them. Has the Corps encountered any 
significant opposition to any of these reports? And, if so, can 
you generalize--generally characterize the opposition?
    General Peabody. I am not aware of any opposition to any 
one of those studies. In general, there are always concerns 
that reveal themselves during the study process, especially 
during the public comment period. That is why we go through the 
NEPA process. And we work very hard to properly address 
concerns through the public comment period. But I am not aware 
of any specific, significant opposition to any of those 
reports.
    Mr. Gibbs. My followup question, now that you mentioned 
public comment period, you know, how do you respond--it doesn't 
necessarily have to be a NEPA issue, but I mean just a project 
that is being laid out there, and let's say there is certain 
entities that aren't happy with the proposal that is being laid 
out, and maybe there is an alternative plan. How do you--how 
does the Corps react to those alternative ideas that might be 
thrown out, and study that, and how do you relate back to the 
comments?
    General Peabody. Sir, I would say in two general ways. The 
first is we work very hard to balance all of the expressed 
concerns in a proper way, and the actual recommended 
alternative in the feasibility study that makes it through the 
Chief's Report. And the second way is we document those 
concerns, we address them specifically. We address how we have 
resolved them. Or, if they are not resolved, how we have 
addressed them in the final report.
    Mr. Gibbs. OK. And I guess to follow through that a little 
bit, independent external peer reviews basically agreeing with 
the data the Corps is using, you know, what is the status with 
that, with the independent reviews, when they look at the 
processes and----
    General Peabody. Yes, sir. Since the passage of WRDA 2007 
we have executed approximately 75 independent external peer 
reviews, for a total cost in excess of $12 million.
    In general, we have not found any comments that have made 
significant changes to our reporting. I would say, however, 
what this has revealed is that often times we don't document 
our reports with sufficient clarity, so that generates a lot of 
the comments that we get in the independent external peer 
reviews. Basically, we need to train our engineers to be better 
masters of the English language, and write in clearer fashion, 
so that our conclusions are understandable to all audiences.
    Mr. Gibbs. I see, because it raises more questions that 
didn't have all the information.
    General Peabody. Yes----
    Mr. Gibbs. That is kind of typical. We get that, too, a 
lot.
    Another thing I would talk about, ask a question, you know, 
this economic downturn we have gone through, do you feel that 
the projects that provide economic benefits, should they 
receive a higher priority than projects that might be more like 
environmental restoration projects that maybe don't provide an 
economic return? I mean how do you balance that?
    General Peabody. Sir, that is kind of a judgment call. But 
I got to tell you, growing up on Lake Erie as a kid in the 
sixties, and going to Nickel Beach where it was littered with 
dying fishes, I am very personally sensitive to making sure 
that we properly care for the environment.
    In my view, there is no need for the two issues to be in 
competition. Clearly, there is always a competition for limited 
resources, but both purposes are important for the Nation to 
prosecute, and need to be fully considered.
    Mr. Gibbs. Yes. I guess one thing I have said--I am going 
to make this statement, so it is clear how maybe I personally 
feel--obviously, I think the environment is important, and we 
should do what we can. But I am concerned when I see the 
President's budget. There is a lot more--like, I don't know, 
several times more--investment in restoration projects than in 
infrastructure projects, and I am concerned that if we don't 
maybe prioritize our--those investments a little bit more, then 
we won't get the economic return, then we won't have the 
dollars to flow through to do the environmental stuff.
    So, we have to find a balance there, and that is a concern 
that I have, that there might be a higher priority set on the 
things that, you know--find a return, but in a different way, 
not an economic return. So I have concerns about that.
    Just quickly in 3x3x3, you know, why not 2x2x2 or 4x4x4? 
How did we end up with 3x3x3?
    General Peabody. You know, sir, at the end of the day we 
did a lot of introspection on this issue. And Mr. Brown and I 
were just talking about this yesterday. When it came down to 
it, it was our judgment that WRDA 2007 put those bounds out 
there between 2 and 4 years, $2 million and $4 million. But our 
judgment and our experience concluded that most--not all, but 
most--feasibility studies, especially ones that are well 
bounded geographically and by purpose, could be executed in 
those parameters. And so far our experience is playing that 
out.
    Now, we do have a goal of delivering some in 18 months. Not 
many make that. I think Cedar Rapids is one that was close to 
that amount of time. But most of them are much closer to the 3 
years so far.
    Mr. Gibbs. OK. I will follow up then with another round of 
questions. But I will yield to Ms. Edwards, sitting in for Mr. 
Bishop.
    Ms. Edwards. Well, thank you very much, Mr. Chairman. And 
also to Chairman Shuster and our ranking members, Rahall and 
Bishop, because I think this is a really important and timely 
hearing. And I appreciate, General Peabody, you and your staff 
being here this morning.
    Also wanted just to take a moment to acknowledge--I don't 
have a daughter, but I get a daughter for the day--Alia 
Matthews, who is with Girl Scouts Troop in Upper Marlboro 3255, 
and I am just glad that she is here, so she can see a Congress 
that is actually working and doing something today.
    You know, I think Senator Cardin, Ben Cardin, and I have 
the honor and responsibility of representing Maryland in 
Congress on the authorizing committees and also on the WRRDA 
conference committee. And so I think I share the view of our 
chairman and our ranking members that we will get WRRDA 
completed in short order. And this bill takes us a really long 
way into doing that.
    For our State--and we have the belief in our State that 
when you invest in restoring environmental infrastructure, that 
that actually is infrastructure investment and requires, you 
know, a lot of job creation in order to do that. We happen to 
have the fourth longest coast line in the continental United 
States. The Chesapeake Bay, several of its tributaries--through 
the Fourth Congressional District I think I have three or four 
tributaries that flow through the Fourth Congressional District 
in Maryland--these resources provide billions of dollars in 
economic activity for our State. And maintaining and 
modernizing Maryland's waterways and its ports, including the 
Port of Baltimore, is essential for supporting and expanding 
our Nation's--our State's industries and economy.
    I want to ask you, because we have been engaged, obviously, 
with the modernization of the Port of Baltimore, its public 
terminals, its foreign and domestic cargo, which total about 
9.6 million tons in 2013, and was equal to the prior year. The 
port's public and private terminals handled 652,000 cars in 
2012, the most among all U.S. ports. And in 2013, automobiles 
and light truck tonnage increased 11.4 percent at the terminals 
at the Port of Baltimore. With this kind of volume, the Port of 
Baltimore plays a vital role in Maryland's economy, and also 
has a significant impact on the economy of the entire east 
coast, and even into the Midwest, providing for good-paying 
jobs for Maryland's families. And it really is one of the most 
important economic engines in the State.
    On February 26th the Corps transmitted to Congress the 
Post-Authorization Change Report for Poplar Island in Maryland. 
Poplar Island is located on the Chesapeake Bay in Talbot 
County, and is currently being rebuilt by the Corps using 
dredge material from the Chesapeake Bay's approach channels to 
Baltimore. And so, I wonder, General Peabody, if you could 
comment for us about that project, and how it is coming along.
    And then, if you would, also talk about the 3x3x3 process. 
Since you have been engaged in January 2011, you have really 
significantly reduced the number of projects that are 
outstanding in the process. And I think that that speaks well 
to what will happen in the future.
    And then, lastly, General Peabody, in this year's 
authorization--I mean this year's administration fiscal year 
2015 request for the Army Corps, it is about $80 million. And 
that is $45 million less than fiscal year 2014. Can you tell us 
how you would move ahead under the Civil Works Transformation 
Program, and prioritize where and how $80 million in 
investigation dollars would be allocated?
    I know that is a lot, but take it away in a minute-and-a-
half.
    General Peabody. Yes, ma'am. So Poplar Island, as you 
discussed, is one of the Post-Authorization Change Reports that 
we have submitted for recommended cost increase. This is really 
important for the Port of Baltimore, which, as you pointed out, 
is one of our Nation's premier cargo handling ports because the 
dredge material in the port needs to be placed in upland 
locations, and this provides not just a place to do that, but 
also beneficial use for some critical habitat. I forget the 
exact acreage, but it is a significantly large amount. It also 
provides an opportunity to reliably place that dredge material 
for a very long period of time, multiple decades.
    With regard to the 3x3x3 process, I think one of the 
challenges is we just started this formally 2 years ago. We 
started budgeting for it 2 years ago, which means the 2014 
workplan is the first year we are actually starting to fund 
studies that are 3x3x3 compliant. So we really need to get 
through the execution of the 3 years of those studies and, in 
my judgment, at least one and perhaps 2 years beyond that, to 
cultivate enough lessons that we can see the trends, we can 
distinguish what is working and what is not working, and draw 
conclusions with great clarity.
    I will say, however, as I tried to mention in my oral 
statement, that so far the early indicators are, because of the 
number of reports that we have executed, that it is working and 
it is working well.
    With regard to your question about the budget amount, the 
reality is the Corps is a very small part of the much larger 
Federal Government that has an obligation to live within fiscal 
constraints that we are all very well aware of in these times. 
And the judgment of how much money we should get is up to 
policymakers such as yourselves. And what we will do is 
prioritize the most important studies and all of our training 
programs to fit within whatever amounts that we are allocated 
and appropriated.
    Ms. Edwards. Thank you very much for your indulgence, Mr. 
Chairman. And, General Peabody, very politic answer there. 
Thank you.
    General Peabody. Thank you, ma'am.
    Mr. Gibbs. Mr. Shuster?
    Mr. Shuster. Thank you, Mr. Chairman. I wanted to stay with 
the 3x3x3 for a minute. And you have already started doing it 
from the district to the division to the headquarters 
consolidating those. Have you been able to determine how much 
time savings you have been able to squeeze out of the system 
when you implement that? Has it been in process long enough to 
be able to----
    General Peabody. I don't think we have got enough data, or 
have analyzed it to the point that I can tell you with any kind 
of precision, sir. However, as I indicated earlier, the fact 
that we produce 2\1/2\ times the reports in a little less than 
3 years versus the 3 years prior to starting this is a good 
indicator that we are executing faster.
    You hit on the vertical integration. To me this is perhaps 
the most important aspect, and it is more complex than just 
vertical integration, because it is horizontal integration, 
with all the stakeholders and resource agencies, as well. But 
what this allows is the people with the experience and the 
understanding of the policy pitfalls and challenges that most 
projects face to engage much earlier with the people in the 
field who understand the specifics of what the sponsor needs 
and the specifics of the project, and then hone down and focus 
on the alternatives that are most likely to both achieve what 
the sponsor desires, and also be policy-compliant.
    So we really crush out a lot of blind alleys by doing that 
approach.
    Mr. Shuster. That is good. And I think that is the most 
important part, too. I agree with you. The 3x3x3 concept is 
making all three of those operations work together to get it--
to move forward.
    Approximately 20 percent of the 48 Chief's Reports that 
were authorized in the 2007 WRDA received Federal funds for 
construction. Of those not funded, if Congress were to 
authorize a public-private partnership which we have put a 
pilot in, how many of those Chief's Reports of those 48 would 
you say would have moved forward by now, if the public-private 
partnership were expanded?
    General Peabody. I guess we would have to know the 
specifics of the authorizing legislation. Each project would 
have to attract private investment, based on its own merits. 
And frankly, sir, I haven't done an analysis where I could tell 
you how that works. I would say that the deepening in Miami 
Harbor, which is being done with advance funds, is an indicator 
that there are projects out there that there is great interest 
in funding, with or without Federal investments.
    And so, there is no doubt in my mind that some of them 
would go forward. It would just depend on the specifics of the 
legislation and the specifics of the attractiveness----
    Mr. Shuster. Right.
    General Peabody [continuing]. Of the various projects to 
investors.
    Mr. Shuster. Well, you mentioned the Port of Miami. What 
about the Port of Savannah, too? I understand that Georgia has 
lined up their money, they are ready to move, and there has 
been some concern by the Governor of Georgia that the Corps is 
not on the same page. But I believe this legislation will allow 
Savannah to move forward with their own money.
    General Peabody. Sir, I think you are aware that Savannah 
is one of those legacy projects that we spent years on and I 
think in excess of $40 million studying. The biggest challenge 
with Savannah was that it is basically co-located with a 
national park and some pretty sensitive environmental habitat. 
And so, working through that was part of the challenge.
    The Corps fully shares all the stakeholders' desires to get 
that project underway. But right now we are waiting on an 
authorization from the Congress, which the administration has 
deemed is needed before we can move forward.
    Mr. Shuster. Which--we hope to have to you in short order.
    General Peabody. Yes, sir.
    Mr. Shuster. Because, again, I know that to the folks in 
Georgia, the Governor, it has been an extremely important 
project. And I think they have $230 million or $240 million 
ready to go, as soon as we get that authorization out there.
    So, I thank you, and I yield back.
    Mr. Gibbs. Mrs. Napolitano?
    Mrs. Napolitano. Thank you, Mr. Chairman. And I associate 
myself with the remarks of my predecessors about the Army 
Corps' work. We are very happy with our group in the L.A. area.
    The Los Angeles River Chief's Report is currently being 
worked on and will be finalized this year, of course. And we 
have advocated--several of my colleagues--on the Los Angeles 
River inclusion in the WRRDA. But I realize this may not 
happen. I would like to submit a letter, Mr. Chairman, for the 
record from the Los Angeles mayor, Eric Garcetti, a city of 
over 4 million people, urging the committee to support the 
locally preferred Los Angeles River.
    Mr. Gibbs. So ordered.
    [The information follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Mrs. Napolitano. Thank you. The locally preferred 
alternative provides the most robust ecosystem restoration 
outcomes, while also providing four times more jobs than the 
other alternatives, and will thereby be appropriately--most 
appropriately redress historic environmental injustices that 
have resulted from the river's channelization, providing new 
public access to natural open spaces, improving public health, 
stimulating regional and local economies, and enhancing the 
life of quality not only for the city of Los Angeles, for the 
whole county and the whole area of Los Angeles.
    This locally preferred alternative includes both 
significant restoration of the Los Angeles River confluence 
with the Verdugo Wash near the city's border with the city of 
Glendale and the only substantial western bank connection 
providing a profound hydrological link between the Los Angeles 
Historic Park and the river.
    I believe the L.A. River's Chief's Report is being 
reviewed, and I would hope that--I would like to receive, and 
this committee may receive an update of where it stands.
    General Peabody. Yes, ma'am. Thank you very much for the 
question, Congresswoman. I was actually out there in January 
and spent some considerable amount of time with the Los Angeles 
District and the South Pacific Division, reviewing the project. 
We did an extensive overflight. I have got a great appreciation 
for its importance.
    The current status, as of just a couple of weeks ago, the 
mayor of Los Angeles, Mayor Garcetti, provided the district 
with a letter of support, which is great. But he put some 
language in that support letter that is unusual. And so we have 
to work through that.
    For example, he asked for a cost share provision that is 
outside of normal statutory provisions. So we are in 
consultations right now, analyzing that, ma'am. And we are 
determining how we can continue to work with the mayor and the 
local sponsors to move forward. Once we have resolved that, 
then soon thereafter we will be able to move to a Civil Works 
Review Board, which is the last major check point en route to a 
Chief's Report. Generally, after a Civil Works Review Board is 
executed and votes to proceed forward with State and agency 
review, it takes usually about 3 months from that point to the 
time that General Bostick would sign the Chief's Report.
    Mrs. Napolitano. Would you elaborate a little bit more on 
the issue with the cost share? Because I am not aware of it.
    General Peabody. I don't recall the specific language, but 
the mayor suggested that the cost share for alternative 20 
would be higher than what the Federal Government would normally 
cost share. Normally, the way it works is we cost share in 
accordance with the statutory provision associated with that 
particular project. In this case, as I recall, it is 65-35, 
which is the case for most projects.
    Because the Federal Government recommendation is 
alternative 13 and the mayor wants to use alternative 20, which 
is the alternative you discussed, normally we would require 
that the cost share for the amount above the Federal 
recommendation would be 100 percent handled by the local 
sponsor. That is not what the mayor has suggested. So we are 
going through internal process to analyze that and understand 
what we might be able to address the mayor's recommendation.
    Mrs. Napolitano. Thank you, General. And anything we can do 
to help, I would really appreciate being made aware of it, so 
we can work with you from this angle.
    General Peabody. Yes, ma'am.
    Mrs. Napolitano. And I certainly am very pleased about the 
way the Chief's Reports are coming forth, and letting us know 
what they are so that we are aware and can approve of moving 
them forward.
    So, with that, I yield back the balance of my time, Mr. 
Chairman, and thank you so very much.
    Mr. Gibbs. Thank you. Mr. Farenthold?
    Mr. Farenthold. Thank you very much, General. Thank you for 
being here. Thank you for all you do for the infrastructure in 
this country and otherwise.
    One of the consistent complaints that I hear from 
businesses, and even governmental entities around the country 
is, ``Give us some rules, and we will do our best to comply 
with them. Don't change the rules in the middle of the game.'' 
I am cochairman of the Texas Maritime Conference, used to 
represent Brownsville, Texas, until redistricting, and still 
actively involved in all of the ports along the Texas coast. 
And it was kind of disturbing to hear from Brownsville that it 
looks like the Corps is moving the goal posts on Brownsville. 
Let me give you a little bit of background.
    The Port of Brownsville is working on the Brazos Island 
Harbor project, which is basically a widening and deepening 
project that has been going on now for about 7 years. I am a 
frequent visitor to the Port of Brownsville, back when I 
represented it, and after. It is, you know, one of the poorest 
and most underdeveloped areas of our country near the U.S.-
Mexico border. And this deepening project will be hugely 
beneficial. It looks like the cost-benefit ratio on that 
exceeds six to one.
    And it is my understanding that there is a very clean draft 
Chief's Report, and it is tracking to be final in September of 
2014. But we recently found out that the Corps unilaterally 
decided to not go by the management protocol agreement between 
the National Marine Fisheries Service and the Corps agreement 
from December 29th of 2006, and the Corps is changing how they 
are interpreting that, and it looks like they are getting a 
potential biological problem.
    The Port tells me they have worked hard with the Corps on 
these and other environmental issues over the past--
specifically, the green turtle is an example where Brownsville 
has worked very well, together with the Corps, for many years. 
I guess my question is how--why are we shifting the rules now? 
Are you aware of that, and is there a reason we are doing that?
    General Peabody. Congressman, the first I became aware of 
this issue was this morning. So, unfortunately, I am not 
familiar with the details. However, I am going to follow up 
immediately following this hearing and check with the 
Southwestern Division. I am familiar with the project.
    Mr. Farenthold. Right.
    General Peabody. In fact, we had hoped to have a Civil 
Works Review Board before now. A few months ago there were some 
delays. In fact, I asked General Kula, the Southwestern 
Division commander, to do a detailed root-cause analysis of the 
reasons for the delays from the project. He has done that, and 
we are using that information to contribute to the current 
analysis that we are doing to potentially make adjustments to 
some of the specifics on how we execute planning modernization.
    Mr. Farenthold. And I understand----
    General Peabody. But I am going to have to follow up with 
you, sir.
    Mr. Farenthold. And I would appreciate that. I guess there 
is a delicate balance to strike. You know, if we want to 
streamline things and do our job better, faster, and more 
efficiently, we sometimes have got to change the way we do 
things. But when we change the way we do things, if we move the 
goal posts as part of that, that runs up the cost for 
everything.
    And, obviously, you know, there is a cost associated with 
going through all of the process, both for the Corps and for 
whatever entity, being a public entity, or, you know, whomever, 
it is trying to deal with the Corps. And, obviously, costs go 
up as the delays go down. I think if you look at what this 
committee has been trying to do, whether in MAP-21 with 
highways, or what we passed out in WRRDA, we want to protect 
the environment, we want to do things safely, we want to get 
the job done, but we don't want to have unnecessary delay. 
There is cost involved in that. And so, you know, my request to 
you is you keep that in mind in all that you are doing, not 
just the Port of Brownsville.
    And my final question would be what can we do to help you 
get your job done in a better and faster manner.
    General Peabody. That is a great question, sir. You know, 
there has been great collaboration and engagement with the 
Congress on what we are doing. I think the most important thing 
is to work closely with us to understand what it is that we are 
doing, to understand what the successes are, and understand why 
sometimes things don't go as people would like.
    We do need a little tactical patience. The effort we are 
undergoing is going to take months and years to determine how 
well things are working. And so, just continued engagement 
would be the most important thing, Congressman.
    Mr. Farenthold. Again, thank you. I see my time has 
expired, so I will yield back.
    Mr. Gibbs. Ms. Frankel.
    Ms. Frankel. Thank you very much, Mr. Chair. And I also 
want to welcome Daishia Fare, eighth grader from Northern 
Middle in Maryland. Thank you for being here as part of Girls 
Inc. Welcome.
    So--and welcome to our guests here today. Thank you for 
your service, appreciate it. I want to say what I am going to 
say--tell you with the utmost respect, but I am coming from 
representing a delegation of Members from south Florida who, 
basically, are pulling their hair out right now, in a dither. I 
am saying that respectfully.
    And the reason for that--and I don't want to necessarily 
fault the Army Corps, because, you know, you look in the 
mirror, and we are the enemy, the Congress--because I believe 
we have given much too much authority to the executive in 
deciding which projects are actually going to end up getting 
authorized, since our bill, which is bipartisan, went in the 
direction of authorizing Chief's Reports. And for me, I think 
that gives much too much power to the executive, and really 
removes a lot of transparency that I think the public expects 
and deserves.
    And I want to focus on three projects in south Florida, 
just by example. The first is Port of Palm Beach in Palm Beach 
County. The second is Port Everglades in Fort Lauderdale. And 
then we have the Central Everglades Planning Project in 
Florida.
    Disappointed would be the minimal word I could use to 
express the fact that the Chief's Reports for Port Everglades 
and for CEPP will not be completed in time for this next 
authorization. We have waited 18 years for a Chief's Report in 
Port Everglades. And I am going to--I will defer to Mr. 
Webster, and he will tell you the history of CEPP, because he 
worked on it when he was speaker of the house in Florida.
    And what I want to say is not only are these projects very, 
very important for the economy of Florida--and, of course, CEPP 
is very important not only for the economy, but for our 
environment and our water resources--but both these projects 
have overwhelming popular support in the community, and 
commitments for funding from the community.
    Port of Palm Beach, which I have--it is a split in our 
community, in terms of support. There are some who are very 
much in support of it, the dredging, an expansion. There is 
some very vocal opposition. And there is, from what I know, no 
commitment for any matching funds from the community. And yet, 
of these three projects, the only project that we have a 
Chief's Report for is the one at Port of Palm Beach, which 
there is no commitment for funding from the community.
    So, my question really is, do you take into account the--
either the community support of a project? Do you take into 
account the ability of a community to come forward and pay its 
share? And how--does it matter to you at all what Members of 
Congress communicate in regards to their--what their 
stakeholders are thinking?
    General Peabody. Ma'am, thank you for those questions. I am 
familiar with all of these projects. I am more familiar with 
CEPP and Port Everglades than Palm Beach.
    Let me take your last question first, Congresswoman. 
Absolutely. We take very seriously the concerns of Congress. 
You are the elected constituents' representatives. You are more 
closely tied to them than we are. And so we do listen very 
closely.
    I think there are some misunderstandings associated with 
some of the concerns that have been expressed. Let me work my 
way through the two that I am most familiar with. I am not as 
familiar with Palm Beach.
    But to answer your other question about community support, 
there are two things that are required before I go to the 
specifics. The first is, before we can proceed with a 
feasibility study, we need a letter of support and identified 
viable, non-Federal sponsor. Sometimes that non-Federal 
sponsor's ability to support a project changes over the course 
of a study. But for the most times, that does not happen.
    The second thing we need to proceed forward at later stages 
in the study, is a Federal cost-sharing agreement with the 
sponsor. And we would not get to a Civil Works Review Board if 
we didn't go through that process.
    With regard to the Central Everglades, we are very close. I 
committed at the Civil Works Review Board that was held last 
week that we would have a continuation of our Civil Works 
Review Board not later than the end of June. So we are less 
than 2 months away from continuing the Civil Works Review 
Board. Once we continue the Civil Works Review Board, we will 
then move forward to State and agency review. Within about 3 
months we can expect a Chief's Report.
    So, the project briefing done by the district was 
phenomenal, explained very clearly an extremely complicated 
project, one of the most complicated projects that we have 
seen. But the truth is that there were some documentation 
issues that had to be addressed. And we really held the Civil 
Works Review Board before our review team had been able to 
complete their review.
    With regard to Port Everglades, one of the frustrations 
that people sense, as was discussed earlier, is the sense that 
we were moving goal posts. What generally happens when that 
perception is out there is the assumptions we were planning on 
turn out not to be valid. And so, when those assumptions change 
and are no longer valid, we have to go back and address the new 
reality that confronts us. That does result in additional time, 
often results in additional costs, often results in changed 
requirements in order to get the study forward. And, 
essentially, that is what happened with the Port Everglades 
project.
    Ms. Frankel. Well, I thank you for your answer, not that I 
am happy with it. But, Mr. Chair, I will yield my time. I hope 
Mr. Webster will follow up on some of that.
    Mr. Gibbs. OK. Thank you, General Peabody, for that long 
explanation.
    I would like to recognize the chairman emeritus, Mr. Young 
from Alaska.
    Mr. Young. Thank you, Mr. Chairman. General, I am--really 
want to ask a couple of short questions on the Brownsville 
Harbor. You just told the gentleman, Mr. Farenthold, that you 
didn't really know anything about it, and that disturbs me, 
because this is a project that came under my chairmanship. And 
I believe it has gone through more firsts than anything else.
    You changed it from a legacy project to a SMART project to 
I don't know how many different projects. You have had 
different managers, district managers--three, four of them, I 
believe--and this is a legacy project. Now, what is the 
problem, and why is it happening, and why are we being delayed, 
and why isn't it finished?
    General Peabody. Sir, I apologize, Chairman. I expect the 
Civil Works Review Board for that will be executed this summer. 
I am very familiar with the project. What I was not familiar 
with, to clarify, was the specific issue related to an 
endangered species. The first time I heard that was this 
morning. So I just need time to follow up on it with the 
local----
    Mr. Young. OK. I am going to make a suggestion. First, you 
know, I am very--a big supporter of the Corps. And I am a 
little frustrated--and, frankly, a little pissed off--and I 
will say that out loud again, pissed off--because now you are 
being dictated by the Fish and Wildlife, Endangered Species, et 
cetera, et cetera, and nothing gets done. And those--I have 
seen these projects all across the United States, and it is 
inappropriate.
    I want you to take a firm stand against an agency. And I 
just had it happen up in Alaska. The EPA was going to veto a 
project prior to you applying for a permit. There has to be a 
little bit of more--say, ``This is our job.'' And you show me 
where the law is wrong, and we will try to change the law. But 
this project started when I was chairman. Brownsville. It is a 
depressed area. It is a good project. We need that when the 
Panamax is coming in. And now we find out there is now a new 
system. And why that has occurred, I don't know. Where did it 
come from? Who instigated it? Why was it a legacy project? And 
now we have to go through, you know, numerous other firsts. 
Don't do that.
    So, you are going to get back to me and this committee, and 
we are going to find out why we can't expedite that process, 
get this done this summer. I don't want to come back here next 
year and chew on you again if you are still in that position, 
because it is inappropriate.
    General Peabody. Yes, sir.
    Mr. Young. You have a responsibility.
    General Peabody. Yes, sir.
    Mr. Young. Would you like to respond, please?
    General Peabody. Sir, as I said earlier, I am absolutely 
committed to looking into this as quickly as possible, and 
getting back to you and the committee as quickly as possible on 
what is going on. And I still expect that we will be able to 
move forward with a Civil Works Review Board later this summer.
    Mr. Young. OK. And don't--like I say, keep us informed. 
Keep this committee informed about where the process--if there 
is a stalemate, if someone else is getting their finger in the 
pie, because I want this project done.
    General Peabody. I will keep you up to speed.
    Mr. Shuster. Will the gentleman yield?
    Mr. Young. Be glad to yield.
    Mr. Shuster. While we are talking about Brownsville again, 
I have been to Brownsville, I know what is going on down there. 
There is billions of dollars' worth of investment that this 
thing needs to move forward. Again, everybody in this room 
wants to make sure the environment is sound. But to slow it up 
again is the wrong thing to do.
    So, I echo Chairman Young's comments. We want to find out 
what is going on. Keep us informed. But this project really 
needs to move, because it is billions of private dollars that 
is going to go into that port, and it is going to help an area 
of the country that has seen some tough economic times. So, 
again, we are going to be on this one. So I appreciate that.
    And the other thing is--the gentlelady from Florida, if she 
asked, I missed it. The Port of Everglades, which I have said 
to her, you know, we are going to go through this process, 
and--when do you expect the Port of Everglades to have a 
Chief's Report, roughly?
    General Peabody. Go ahead. Yes, Tab, go ahead.
    Mr. Brown. Sir, the bottom line is right now we are pretty 
close in terms of finalizing the issue with the biological 
opinion. After that we believe we can finalize the recommended 
plan and then move forward and finalize the report.
    Mr. Shuster. So we are looking at months, not years?
    Mr. Brown. We are talking about months. Yes, sir.
    Mr. Shuster. Yes, OK. Because, again, as I have committed 
to the gentlelady from Florida, when we get done with this bill 
we are going to start working on another bill, because I know 
how important it is to Florida. And I can assure you Don Young 
will be looking over your shoulder and Brownsville should be 
looking over your shoulder, and the Port of Everglades--or 
should be looking over mine, too, so I want to make sure we 
move that, keep that moving forward.
    So, again, thank you, and I yield back.
    Mr. Gibbs. Mrs. Kirkpatrick?
    Mrs. Kirkpatrick. Mr. Chairman, General Peabody, there is a 
project in my district that is unlike any other in the country 
because it seeks to protect a community of people whom, not so 
long ago, Congress moved into a 100-year flood plain. The 
Federal Government has relocated over 100 Navajo and Hopi 
families from tribal lands to Winslow, Arizona, pursuant to 
laws Congress passed in 1974 and 1980. Not only do we have a 
statutory responsibility for these families, but Congress and 
the Army Corps of Engineers share a trust obligation for the 
safety of American Indians.
    The Little Colorado River at Winslow Levee feasibility 
study will have its Chief's Report by next August. And I just 
want to thank you, General, for committing to do that. And I 
thank the chairman for his commitment to begin writing the next 
WRDA bill as soon as we finish passing this one. And I yield 
back the balance of my time.
    Mr. Gibbs. Mr. Webster?
    Mr. Webster. Thank you, Mr. Chair. I would like to follow 
up with the Central Everglades Planning Project. When we first 
started, which was--Ms. Frankel and I were both in the Florida 
legislature, that was--we passed a Everglades Restoration Act 
many years ago. And we were used to having a 50-50 commitment 
with the Federal Government, but us funding most of it. And we 
didn't see money for many years after that. We spent hundreds 
of millions of dollars. But in every case we needed approval. 
Even though the Federal dollars weren't coming, we still needed 
to have approval.
    Is there a specific date that the board will--the Civil 
Works Review Board will reconvene? I mean does--so they can 
move forward with this?
    General Peabody. Congressman, we have not scheduled a 
specific date. I will receive an in-progress review report from 
our policy reviewers this Friday. And within the next 10 days 
to 2 weeks after that, I expect to have a clear understanding 
if any issues remain to be resolved. If there are no issues 
remaining to be resolved, then I expect we can continue the 
Civil Works Review Board at that time.
    So, the best case scenario, I think, is the end of next 
month, the end of May. The worst case scenario is the end of 
June. And so I am absolutely committed that not later than the 
end of June we will continue the Civil Works Review Board. When 
we convene that, I will only do it because I am confident that 
we will be able to get to a positive vote, and then submit the 
report for State and agency review.
    Mr. Webster. May sounds really, really good. A lot better 
than June.
    Also, can I ask a question about the Jacksonville Harbor? 
The Chief's Report was signed earlier this month, and now it 
has been submitted to the Secretary of the Army. Is there a 
project sort of update on what is going to happen with that 
Chief's Report and a timeline?
    General Peabody. Sir, the Chief's Report, once it is 
signed, goes two place. First, it comes to the Congress. But 
then it goes to Secretary Darcy's office for administration 
review between her office and the Office of Management and 
Budget. And, you know, they do their review, and once it gets 
through administration review, then the administration would 
submit it back to Congress with any independent recommendations 
that the administration may have, separate from the Chief. By 
statute, the Chief is required to give his recommendation, and 
then the Secretary has an equal obligation to make her own 
independent judgment.
    Mr. Webster. Is there any kind of timeline for that?
    General Peabody. Sir, I am not familiar with where that 
particular project is in administration review right now.
    Mr. Webster. OK. Yield back.
    Mr. Gibbs. Mr. Rice?
    Mr. Rice. General, I have heard reports--I obviously wasn't 
here when we started working on the Port Everglades project, 
but it started in the 1990s. Is that correct?
    General Peabody. Tab, do you have the timeline?
    Mr. Rice. The Florida port system told me they have been 
working on trying to get this port dredged since 1998. Is that 
right?
    Mr. Brown. It has been about 17 years, sir.
    Mr. Rice. You work for the Army, and you do a great job, 
and I appreciate your service. But--and it is very appropriate, 
because I think we are in a war. Not that this is the Armed 
Services Committee; we are in a economic war with the rest of 
the world. And who we are fighting for is that young lady right 
over there, that Girl Scout. And we are fighting for--you got 
kids?
    General Peabody. I have a 4-year-old. Yes, sir.
    Mr. Rice. Yes. We are fighting for them. We are fighting 
for American competitiveness, economic competitiveness. And I 
think, on a fair playing field, nobody can beat us. But I think 
we are defeating ourselves. We are strangling ourselves with 
all this regulation and delay. The fact that it would--we could 
ever dream of taking 16 years to approve dredging a port--had 
that port been dredged before?
    General Peabody. Oh, yes, sir.
    Mr. Rice. Yes. That it would take that long to make 
decisions about feasibility and environmental conditions on a 
port that has been dredged before that is not going to require 
any Federal money, I mean, the system is so very, very clearly 
broken.
    And, I mean, we can sit here and name a whole lot of 
reasons why this has happened, and--but it should never happen 
again. How long have we been working on Brownsville?
    General Peabody. I don't have the timeline on that, sir.
    But, sir, I would like to say that your point is exactly 
right. I mean this is exactly why we instituted planning 
modernization, so we could come to clear decisions on 
relatively predictable timelines, so that all the benefits that 
can accrue from these water resource projects can start. 
Because we can't get to construction until we do our----
    Mr. Rice. I hear you, and I appreciate the concept of 
3x3x3. I think 3x3x3 is too long, if we are going to compete. 
There are groups of people around the world in every country, 
every organized country except for us, that sit around and try 
to figure out how they can make their countries more 
competitive, how they can cut regulation, streamline costs, 
and--or reduce cost and make things more efficient.
    And we have got to change our attitude. We have got to 
recognize that we are in an economic battle here, or we are 
going to continue to see jobs--and when that young lady right 
there graduates from college does, and my sons just did, there 
is not going to be anything for them. There is going to have to 
be a dramatic change in our attitude if we are going to compete 
in the world.
    General Peabody. Sir, I strongly concur with your concerns 
about the economic competitiveness of this Nation. I am doing 
everything I can to move things forward in the Corps of 
Engineers Civil Works Program to get to decisions so that we 
can remain competitive.
    Mr. Rice. I mean, very honestly, particularly on a port 
that has been dredged, you know multiple times--let's talk 
about Charleston for a minute, not that Charleston has taken a 
tremendous amount of time, Charleston is one that I am roughly 
familiar with. I don't know how many times Charleston has been 
dredged, but it has been dredged pretty darn continuously for 
decades. Charleston is an incredibly economically important 
port. I can't imagine a scenario, just common sense, that you 
would run your study on Charleston on what it takes to get it 
to the Panamax depth, and that you would conclude that that 
port doesn't need to be dredged. I cannot imagine that 
scenario. And why it would take years to make that decision is 
just--it defies common sense, in my opinion. And it makes us 
less competitive.
    But we need to create a future for our kids. We need to 
figure out a way to get past this. So thank you for--two things 
I would like to see from you. One, I want your suggestions, 
because I don't know. I want your suggestions on what we can do 
to make this dramatically different, particularly for ports 
that have been dredged over and over again, and are so clearly 
important to our national economic security.
    And, two, I want to know how much money we are spending 
doing these studies--for example, Port Everglades--versus what 
it actually costs to dredge. I want to know what the percentage 
is--difference--because I think we are spending an incredibly 
inordinate amount of money and time. And I would like to take 
for that to take into account opportunity costs that we have 
lost.
    General Peabody. In terms of the amount of money, let's 
talk about Savannah Harbor, which I am more familiar with. 
First of all, Charleston Harbor is on track for a Chief's 
Report next year, in 2015. And I just got an update on that 
last week, and it is where it needs to be, barring any 
unforseen circumstances, which sometimes do arise.
    But the Savannah Harbor expansion project, for example, 
took at least 15 years, over $40 million, to study that 
project. I happened to sit on that Civil Works Review Board in 
a previous capacity. General Semonite, then the division 
commander, had a very graphic visual that showed the 27-inches-
across binders documenting all the issues associated with the 
project.
    But, sir, we have to comply with all of the statutes, 
policies, and regulations that we are obligated to follow. And, 
in this particular case, because of the confluence of the 
harbor with some sensitive environmental habitat, it really 
made the project much more complex to plow through.
    Mr. Rice. Well, what I would like to know is how we can 
streamline that 27 inches of binder, or the statutes that you 
have to comply with. What I want to know is what we have got to 
get rid of or simplify to get----
    General Peabody. Sir, within our current legal policy and 
regulatory constraints, we believe planning modernization does 
exactly that. And all the early indicators are that it is 
working, and it will deliver what we think it is supposed to.
    Mr. Rice. I hear you, and I appreciate that, and I think 
you are doing a great job, I really do. And I know you 
understand my concern. But I don't want you to start the 
sentence, ``Within our current.'' I want to talk about what we 
can change within that to redefine those boundaries, and make 
this easier.
    General Peabody. Sir, that is for people who don't wear a 
uniform to----
    Mr. Rice. I understand. But we are not--we need your 
insight, because you all work with it every day. We need your 
insight on what we need to change.
    General Peabody. Yes, sir.
    Mr. Rice. Thank you.
    General Peabody. Yes, sir.
    Mr. Gibbs. Mr. Jolly?
    Mr. Jolly. Thank you, Mr. Chairman. General, I just want to 
echo the concerns of my colleagues from Florida on both sides 
of the aisle about Central Everglades, express my urgency and 
disappointment on that, as well. The President has suggested it 
is a priority of his on--through his We Can't Wait Initiative. 
So I appreciate that you have demonstrated an understanding as 
to the urgency of it.
    The only thing I would ask, as a courtesy, you mentioned 
you are receiving a progress report this Friday, and you think 
within 2 weeks you would be able to schedule a review board. 
Could your office commit to updating at least those of us from 
Florida on this subcommittee? That puts it around May 15th, I 
would estimate, 2 weeks out from this Friday. Could you commit 
to updating us by then on a date that you could convene that 
board?
    General Peabody. Sir, we would absolutely keep you and the 
other Members of the delegation updated on the progress of 
moving forward.
    Mr. Jolly. Great. Thank you very much. Appreciate it.
    General Peabody. Yes, sir.
    Mr. Gibbs. Ms. Frankel, did you have a followup question 
you want----
    Ms. Frankel. I am fine.
    Mr. Gibbs. You are fine? OK. I just got a couple things.
    First of all, General, I want to thank you for all your 
work and attentiveness on the Cleveland Harbor dredging project 
for this year, getting that done, and your commitment to work 
with the EPA to find a solution in a future--starting next 
year, really, and how important that is to the economy of 
northeastern, northern Ohio, and at least 2,000 jobs in the 
Cleveland area at risk. And so it is good to know that the 
dredging is going to proceed on schedule this coming May, this 
month coming up.
    I asked you a question, and I wasn't going to ask you, but 
I thought maybe I will ask you publicly, because I think it is 
important. We have had hearings on it in the past, you know, 
the Missouri River issue. We had--one year we had flooding, and 
the next year--I think I got the year right--we had drought. 
And can you just kind of give us an update of what the status 
is right now, and what the Corps is looking at on that whole 
Missouri River Basin issue?
    General Peabody. Thank you, Mr. Chairman. Yes, sir. Just 
last week we did our annual spring flood assessment. We do this 
every year across the Corps, look at all the basins so that we 
can make sure that we understand the status of snowpack, of 
ground moisture, of meteorological forecasts, and then 
anticipate and pre-position assets, if needed, to address the 
potential for flooding.
    We did have the flood of record in recorded history of the 
Missouri River in 2011, as you indicated, and then we had a 
near-record drought just the next year. This year we do have a 
fairly significant snowpack in some spot locations. It is a 
record, or close to a record, in the upper reaches of the 
Missouri River Basin mostly in the Montana area.
    So, we are a little bit concerned about the snowpack, but 
we don't currently have any meteorological forecast that would 
cause us to believe that we would have this almost unique 
confluence of very heavy snowpack and record rainfalls like we 
had in 2011.
    The other thing is the reservoirs are still lower than 
normal in the Missouri River Basin. So we have more storage 
capacity than we might normally have to deal with additional 
runoff from either snow or rain. So while we are certainly not 
out of the woods, we won't know that until well into June. 
Right now we feel like we are in a good position, and we don't 
anticipate major flooding. Although, of course, that could 
always change with the weather.
    Mr. Gibbs. Thank you. I appreciate that. So we--because the 
reservoirs are down a little bit. If we do get a large rain 
event like we did in 2011, we got some capacity there yet to 
prevent flooding. And then we also got to--I know the challenge 
is balancing that, in case we don't get the rainfall. And we 
won't know that, of course, later--like you said, later--late 
this spring, early to mid-summer. So I appreciate that.
    Mr. Denham made it back in, so we will go--go ahead, Mr. 
Denham.
    Mr. Denham. Thank you, Mr. Chairman. Major General Peabody, 
thank you for joining us. This is certainly a good day for a 
lot of us who have been waiting for quite some time to get a 
number of these Chief's Reports completed. As you may know, you 
and your colleagues have worked for quite some time on the 
flood risk management project along Orestimba Creek in 
Stanislaus County. It is part of the San Joaquin Basin near 
Newman. Major General Walsh was before this committee last June 
and I appreciated hearing his comment on the Corps' continued 
commitment on the project.
    I was also very pleased when the Corps submitted, last 
September, the final report from the Chief of Engineers, 
whereby you recommend authorization of a plan for flood risk 
management by constructing a levee there at the city of Newman, 
the northeast perimeter there. The city and the county are both 
local partners, and this project has been in the works for 
nearly two decades. So we are finally excited that this is 
actually getting done.
    But I did want to ask, given all the reforms, how do you 
think the Corps' new 3x3x3 would have affected this project? 
And, additionally, if you can get this project funded by 
Congress, what is the Corps' estimate on delivery date? And do 
you anticipate any issues in completing construction?
    General Peabody. Congressman, thank you, sir, for the 
question. I am not familiar with that project, so I would have 
to look at it to be able to answer your question with any 
precision.
    I will say that I am very confident that our planning 
modernization approach is working. And the 3x3x3 model works 
best when we have a fairly localized project that has a very 
direct purpose. It doesn't have a lot of complicating variables 
and a committed sponsor able to fund their cost share 
provision. Basically, it is a well-bounded and well-defined 
project.
    Now, I will add on one other point that I think is very 
important, in the past we did not bound ourselves. We allowed 
ourselves to infinitely--almost infinitely--look at all kinds 
of alternatives, and get overzealous about studying the full 
range of possibilities.
    What we have done with 3x3x3 is discipline ourselves early 
on to scope down the project to the most likely set of 
alternatives and range of approaches that are going to address 
the issue, and have a high possibility of success in addressing 
the issue. And doing that early, upfront, makes the critical 
difference in being able to cut out these years and years and 
years of study.
    Mr. Denham. Thank you. This is certainly from a local 
perspective, but I would even say my colleagues here in DC--
Orestimba Creek, which most people would have never heard of, 
have heard a lot about it because it has taken so long. And so 
we are looking forward not only to a new and changed process 
that will expedite a number of these projects, but certainly 
having this included in the Chief's Reports with the rest of 
the WRRDA package is something that is going to be very well 
received at home. So thank you.
    Mr. Gibbs. Mr. Sanford?
    Mr. Sanford. Thank you, Mr. Chairman. Thank you, General. 
Nice to see you, sir.
    A quick update from my end along the coast of South 
Carolina. Of all things, in The Post and Courier, which is the 
main paper for--oldest paper in the United States, I believe, 
and the main paper there in Charleston and surrounding areas, 
had an op-ed--excuse me, an editorial, of all things, today. I 
will read just a portion of it, just to bring you up to speed 
from our end, and would love your thoughts.
    ``Six mayors along the Charleston County coast have 
launched an effort to get the silted Intracoastal Waterway 
fixed. Theirs is a commendable emergency measure to restore 
marine traffic, both commercial and recreational, to the key 
north-south artery. They hope to convince Charleston County 
Council to use accommodations tax and transportation sales 
revenues to dredge the most troubled areas--near McClellanville 
and the Isle of Palms near Breach Inlet. Then they hope the 
State will find a long-term way to keep this vital waterway 
open. But it's the State's congressional delegation that needs 
to put the most muscle into solving the problem. Keeping the 
Intracoastal Waterway operational is the responsibility of the 
Federal Government, just as it is the Federal Government's 
responsibility to keep the interstate highways operational. Of 
the Atlantic States, South Carolina ranks last in Federal 
funding for waterway dredging. Indeed, it has not happened at 
all in the past years, according to an article from reporter 
Prentiss Findlay. Our congressmen have made a concerted effort 
to obtain funding to deepen the Charleston Harbor shipping 
channel. They should also be working to find funding to dredge 
the waterway.''
    Meanwhile, County Councilman Dickie Schweers--who is on my 
call list for today--has pointed out a number of shrimp boats 
are being trapped near McClellanville, they can't get in or 
out, and barges that run north and south of the Intracoastal 
Waterway can only ply their trade during high tides, in some 
cases.
    So, I guess my question is a quick update on the 
Intracoastal Waterway, and what is scheduled next, and what 
might be scheduled next, from a funding standpoint.
    General Peabody. Thank you for that question, Congressman.
    Sir, I am not familiar with the specific project, but I 
will dig into it. There are three points I would like to make. 
First of all, it is gratifying to me to hear that there are 
local entities who are interested in contributing funds and 
ensuring that our waterway system works, which I believe is 
absolutely critical to the economic competitiveness of the 
Nation.
    The second point I would make, and I think is the larger 
point, is most people do not understand that this Nation is 
blessed with the largest naturally navigable inland waterway 
system in the world, thanks to--primarily, but not 
exclusively--the Mississippi River system, as well as the 
coastal water system that you are talking about. We have more 
miles of navigable waterway--12,000 miles--than the entire rest 
of the world, combined. And so, the ability to move goods and 
people by waterborne transportation, which is the most 
environmentally compliant and the most economically 
competitive, is the cheapest way to move goods per ton-mile. It 
is one of the reasons why we can sustain our competitiveness, 
despite our relatively high tax and labor rates.
    The last comment I would make is, sir, I think you are 
aware that, because of the fiscal pressures that we in the 
Corps face as part of the larger Federal Government, 
notwithstanding the importance of this larger system that I 
talked about, we have to place our limited funds on those 
projects that give the highest return.
    So, as we go forward, one of the biggest challenges that we 
face in the Corps is we are going to need to make tough 
decisions about what infrastructure to invest in, and what not 
to invest in. We have recon studies in the President's 2015 
budget proposal for Kentucky River and Upper Allegheny to 
dispose of those. There is a lock and dam on the Kentucky River 
that, believe it or not, went into operation during Martin Van 
Buren's administration. And there is no traffic that goes 
through there.
    So, I will get back to you on your issue, sir, but I think 
these larger points are important for us to understand and 
dialogue about.
    Mr. Sanford. I understand the larger points. Appreciate it. 
And, again, that is the proverbial food fight each year of the 
Congress----
    General Peabody. Yes, sir.
    Mr. Sanford [continuing]. And how those funds get 
distributed. But I would just make the point, from a 
competitive standpoint, you know, the port in Charleston has 
been rated, indeed, one of the most competitive points in the 
entire country. And a feeder system feeding out from that port, 
obviously, would be the Intracoastal Waterway running both 
north and south. And so, from a competitive standpoint, and 
from a utility standpoint, there is something very wrong with 
barges only being able to operate at high tide, which is 
currently the case, in areas both north and south.
    And so, we would very much appreciate you getting back to 
me on numbers, in terms of where things stand. And there is 
something wrong--if the statistic is true--it is in the 
newspaper, therefore it may not be true--but South Carolina 
being last in Federal funding for waterway dredging, given the 
importance of Charleston.
    General Peabody. Sir, I look forward to meeting with you to 
discuss those issues----
    Mr. Sanford. Yes, sir.
    General Peabody [continuing]. And I will get back to you.
    Mr. Sanford. Thanks so much.
    General Peabody. Thank you, sir.
    Mr. Gibbs. Well, that concludes our hearing. And, General, 
I want to thank you for coming in. And hopefully we are close 
to finishing up the WRRDA bill, and look forward--we all look 
forward to working with you as we implement the new policies 
that will come out of there to help streamline the costs. And I 
would love to hear your comment you just made at the end there 
about our inland waterway system and the coastal waterway 
system, the numbers compare globally. That is interesting.
    And you are absolutely right, we have been blessed with a 
good system, and we just need to get it updated, so we can just 
remain competitive and move those exports out.
    So, again, thanks for coming in, and this concludes our 
hearing for today.
    [Whereupon, at 11:26 a.m., the subcommittee was adjourned.]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
</pre></body></html>
